                                                                              ,   .
                                       LO
I
                                                  NATIONAL SCIENCE FOUNDATION                      11

                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM
                                                                                                    I




    Case Number: I03110046                                                                   Page 1 of 1

                                                                                                    I:




         On 29 October 2003, an NSF employee1contacted NSF's Designated Agency Ethics official2
         (DAEO) to discuss a possible conflict of interests. The employee explained that she was serving
         on a Technical Review panel for a contract. When filling out the annual financial disclosure
         form she became aware that her husband held stock in one of the companies bidding for the
         contract. The company's stock is not publicly traded, and her husband's stock was worth
         approximately $120,000.
                                                                   \

         The DAEO advised the employee that she did indeed have a conflict and should recuse herself
         fiom the panel. The DAEO promptly notified OIG of the possible criminal violation of 18
         U.S.C. § 208.

         We interviewed the employee. She stated that during the course of filling out her annual
         financial disclosure form she realized that she needed to also include any stock/shares held in any
         retirement fund. She stated that her husband was a former employee of a privately held
         companyY3   which had submitted a bid for the       contract. She had been aware that he used to
         work for the company but had been unaware that his retirement account with the company
         consisted of company stock. She stated that she followed the DAEO's advice and recused herself
         from the panel and returned all documents.

         We concluded that because the employee (1) was unaware of her husband's financial interest
         when she participated in the panel, and (2) followed the DAEO's advice and recused herself from
         the panel and returned all documents, there is no violation. Accordingly, this case is closed.




          ' footnote redated
           footnote redacted
           footnote redacted




NSF OIG Form 2 (1 1/02)
